No. 20-8072
IN THE

Supreme Court of the United States
BYRON MONTIJO–MAYSONET, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 1,866 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury the foregoing is true and correct. Executed on July 7, 2021.
S/KEVIN E. LERMAN

Research & Writing Attorney
Federal Public Defender,
District of Puerto Rico
241 F.D. Roosevelt Ave.
San Juan, PR 00918
(787) 281-4922
Kevin_Lerman@fd.org
July 7, 2021

